HHS/OIG, Audit -"Review Of New Jersey's Efforts to Account for and Monitor Sub-Recipients' Use of Public Health Preparedness and Response for Bio-Terrorism Program Funds,"(A-02-03-02011)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review Of New Jersey's Efforts to Account for and Monitor Sub-Recipients' Use of Public Health Preparedness and
Response for Bio-Terrorism Program Funds," (A-02-03-02011)
October 15, 2003
Complete
Text of Report is available in PDF format (685 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether the State of New Jersey
Department of Health and Senior Services (DHSS) properly recorded, summarized and reported bio-terrorism preparedness
transactions by specific focus areas designated in the cooperative agreements.  In addition, we inquired as to whether
bio-terrorism funding supplanted programs previously funded by other organizational sources and whether DHSS established
controls and procedures to monitor sub-recipients expenditures of Centers for Disease Control and Prevention (CDC) funds.  Our
review found that DHSS accounted for bio-terrorism program funds in accordance with the terms and conditions of the cooperative
agreements with CDC.  DHSS officials stated that CDC funding had not been used to supplant existing State and local
programs.  DHSS did not perform site visits to its sub-recipients.  We recommended that DHSS consider implementing
a site visit component to its procedures for monitoring sub-recipients and address problem areas, as they are identified.  New
Jersey Officials concurred with our recommendation.